<html>
<title> - NOMINATION OF JOHN R. ROTH</title>
<body><pre>[Senate Hearing 113-436]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-436
 
                       NOMINATION OF JOHN R. ROTH 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

NOMINATION OF JOHN R. ROTH, TO BE INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                            JANUARY 8, 2014

        Available via the World Wide Web: http://www.fdsys.gov/
                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-269 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
         Mary Beth Schultz, Chief Counsel for Homeland Security
                    Holly A. Idelson, Senior Counsel
            Deirdre G. Armstrong, Professional Staff Member
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
                 Sarah Beth Groshart, Minority Counsel
                 Jordan E. Kaye, Minority Investigator
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     3
    Senator Tester...............................................     3
    Senator Enzi.................................................    14
    Senator Johnson..............................................    15
    Senator McCain...............................................    18
    Senator Ayotte...............................................    20
    Senator McCaskill............................................    22
Prepared statements:
    Senator Carper...............................................    33
    Senator Coburn...............................................    35

                               WITNESSES
                       Wednesday, January 8, 2014

Hon. John R. Roth, Nominated to be Inspector General, U.S. 
  Department of Homeland Security
    Testimony....................................................     5
    Prepared statement...........................................    36
    Biographical and financial information.......................    39
    Letter from the Office of Government Ethics..................    61
    Responses to pre-hearing questions...........................    63
    Responses to post-hearing questions..........................    87
    Letters of Support...........................................    91


                       NOMINATION OF JOHN R. ROTH

                              ----------                              


                       WEDNESDAY, JANUARY 8, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper, McCaskill, Tester, Coburn, 
McCain, Johnson, Enzi, and Ayotte.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order.
    Mr. Roth, we welcome you and your family today, and our 
colleagues, as well, and our other guests.
    During my years of service on this Committee--I have been 
on this Committee for about--this is starting the 14th year--we 
have examined a number of management and other challenges made 
worse by the lack of leadership at Federal agencies. Last year, 
my first as the Committee's Chairman, I made it one of my top 
priorities to work with the Administration to fill key 
positions throughout the government, particularly at the 
Department of Homeland Security (DHS), and I did this because 
experience shows that we simply cannot expect results from any 
organization--any organization, Federal agencies included--
without strong leaders in place.
    So, as we begin a new year, I am very happy that DHS once 
again has a Senate-confirmed Secretary and Deputy Secretary in 
place. Today, we continue the progress we have made in filling 
vacancies at the Department, considering the nomination of John 
Roth to be Inspector General (IG).
    The DHS Office of Inspector General (OIG) has been without 
a permanent leader, a Senate-confirmed leader, for nearly 3 
years, and that is inexcusable for an office that is so vital 
to the work of the Department and to the Congress. Inspectors 
General are an essential component of government oversight. 
They can help reveal and prosecute wrongdoing, provide 
invaluable support to Congressional budgeting and oversight 
work, and promote the integrity and efficiency of our 
government.
    This Committee builds on the work of the Department of 
Homeland Security's Office of Inspector General, as well as 
with the Government Accountability Office (GAO) and the Office 
of Management and Budget (OMB), to help the Department of 
Homeland Security more effectively and efficiently achieve its 
critically important missions, and we need to strengthen 
management and accountability to work better to unify the 
Department and continue on our quest to get better results for 
less money. There is only so much this Committee, the 
Government Accountability Office, OMB, or the Office of 
Inspector General can do alone, but if we all work together, we 
can help the Department make real progress on its key 
challenges, and there are plenty of them.
    I know the Office of Inspector General is not always seen 
as an ally by management, but good leaders should welcome 
constructive criticisms to help improve performance. That is 
particularly true for the Department of Homeland Security, 
which faces a vital and extremely challenging mission and is 
still coming of age as a Department.
    The Department's OIG itself is also in need of leadership 
and a fresh start after a turbulent period of time that has 
raised questions about the integrity of the office's work and 
has undoubtedly shaken morale within the office. Indeed, a 
recent survey of government employees conducted by the 
Partnership for Public Service showed employee satisfaction 
with the Department's Office of Inspector General falling off 
markedly in 2013 after a relatively solid showing in prior 
years.
    So, the role of Inspector General at DHS is a challenging 
and important job and I am pleased to see a strong nominee 
before us today.
    Mr. Roth grew up in the Detroit area and was educated 
there, including putting himself through college at Wayne State 
University, where he also attended law school. He spent most of 
his career at the Department of Justice (DOJ), where he was a 
seasoned prosecutor. Early on, he was an Assistant U.S. 
Attorney in Detroit, then Chief of the Narcotics Section in 
Miami. In 1999, he moved to Justice Department headquarters 
here in Washington, DC, and has held a succession of 
significant jobs, including Chief of the Asset Forfeiture and 
Money Laundering Section, Chief of the Fraud and Public 
Corruption Section, and Chief of Staff to the Deputy Attorney 
General.
    One of his few departures from the Justice Department was 
shortly after September 11, 2001, when he was detailed to the 
9/11 Commission and was the Senior Counsel and team leader of 
the Commission's Team on Terrorist Financing. Since July 2012, 
he has led the Criminal Investigation Office of the Food and 
Drug Administration (FDA), where he oversees a staff of close 
to 300 people.
    Along the way, he has earned the respect of an impressive 
array of employees and colleagues, including former DHS 
Secretary Michael Chertoff, former Congressman and 9/11 
Commissioner Lee Hamilton, Alice Fisher, the former Assistant 
Attorney General for the Criminal Division, and many others. 
These and other individuals have written the Committee in 
support of this nomination. I will place their letters\1\ in 
the record, without objection.
---------------------------------------------------------------------------
    \1\ Letters of support appear in the Appendix on page 91.
---------------------------------------------------------------------------
    These former colleagues praise Mr. Roth's intellect and 
work ethic, but also, maybe more importantly, his integrity. 
Inspectors General sit in a difficult and, at times, 
conflicting roles. To be effective, it is critical that an IG's 
independence and integrity be beyond reproach. Based on these 
testimonials and more, I believe that Mr. Roth has met and will 
continue to meet this high standard.
    During my meeting with Mr. Roth last month, I enjoyed 
learning about the nominee's background, growing up in the 
Detroit area--hanging out at the corner of Michigan and 
Trumball Avenue, where the Detroit Tigers used to play--his 
impressive career, and his commitment to public service, and I 
look forward to hearing more from him today on his experience 
and his ideas on how to improve the Office of Inspector 
General, and with it, the Department of Homeland Security.
    I want to thank Dr. Coburn, his staff and our staff, 
everyone on our Committee, for their help in expediting the 
consideration of this nomination. Now, I would defer to Dr. 
Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, welcome to you and your family. First 
is a thank you for being willing to serve. Second is a 
recognition of the President's confidence and also judgment in 
nominating you for this position.
    A lot of Americans do not understand how important for 
their freedom Inspectors General are. You are the eyes and ears 
for the American people to be sure that the agencies are 
actually complying with the law, and you come well equipped to 
fulfill that obligation. You have the management skills as well 
as the confidence of, I think, both the Chairman and I. I have 
enjoyed our visits and the insight into both your background 
and your management style and I certainly look forward to 
supporting you.
    There are a great deal of difficulties, not just within the 
IG's Office, but also across Homeland Security, and I will not 
go into the details of those now, but given the troubles at the 
IG Office, it is important to say in a public hearing that the 
vast majority of people who work in that office are stellar 
Federal employees and should not be tainted by any of the 
things that have gone on and questions have been raised about 
over the past several months. There are a lot of outstanding 
issues in the IG in terms of open cases, significantly too 
many, as well as an open case that is precarious and will have 
a great effect on Deputy Secretary Alejandro Mayorkas as well 
as the reputation of the IG's Office.
    I welcome you to our hearing. I look forward to your 
statement. And I look forward to supporting you, not only in 
your nomination and vote on the Senate floor, but in supporting 
you as you go about doing the very important work that you have 
agreed to take on.
    I yield back.
    Chairman Carper. Thanks, Dr. Coburn.
    Senator Tester, do you want to say anything?
    Senator Tester. No----
    Chairman Carper. Senator Enzi, do you have any comment?

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. I will be very quick. Thank you, Mr. 
Chairman and Ranking Member Coburn.
    I would just say this, first of all. Welcome. I appreciate 
our opportunity to visit. As has been said earlier, I think you 
are ultimately qualified to do this job and do it very well.
    This is going to be a challenging position, as we talked 
yesterday. The IG's Office in DHS is--well, let us just say it 
needs some leadership, and the fact that we have gone as long 
as we have without a Senate-confirmed leader is a travesty. 
That being said, hopefully, you will be out of this Committee 
soon and off the Senate floor soon, confirmed in this position, 
because I think you have an incredible skill set for this job 
and DHS's gain will be FDA's loss.
    So, I just want to thank you for being willing to serve. I 
appreciate your excellent credentials and I look forward to 
having a qualified individual in the IG's Office of the 
Department of Homeland Security.
    Thank you, Mr. Chairman.
    Chairman Carper. You bet.
    I, again, want to welcome our witness, John Roth, today. In 
fact, I think we have two John Roths in the audience today, one 
at the table and one covering his back right behind him, his 
son John, who is 14, and I think Michael is back there, but 
Michael is, I think, 12. When my boys were 12 and 14, you could 
not have paid them to come to a hearing like this---- 
[Laughter.]
    So it is a great testimony by their presence to their 
dedication and affection for their dad and we thank them for 
being here, for joining us.
    And Monique, your bride of how many years, 20?
    Mr. Roth. Close to that. It is----
    Chairman Carper. I do not mean to put you on the spot. 
[Laughter.]
    Mr. Roth. Sixteen years.
    Chairman Carper. The best answer I have ever heard when I 
asked somebody how long they had been married, John, was this 
woman at the General Motors plant in Delaware. I said, how long 
have you and your husband been married? He was an engineer and 
she was a supervisor. And she said, ``Thirteen years. Not long 
enough.'' And I thought, boy, I can learn from her. So, 16 
years, not long enough. I would congratulate you for that.
    And, Monique, I just want to say, thank you for sharing 
your husband, and to your sons, for sharing your dad with our 
country for all these years, and your willingness to let him 
try this job on for size if we can get him confirmed. I know it 
is a heavy lift, but we will do our very best.
    As I mentioned in my opening statement, Mr. Roth has served 
in a variety of roles over more than 20 years at the Department 
of Justice. He has also worked in the U.S. Attorney's Office 
for the District of Columbia as Chief of the Fraud and Public 
Corruption Section and Executive Assistant, U.S. Attorney for 
Operations. Mr. Roth served as Special Counsel and team leader 
for the Terrorist Financing Team of the 9/11 Commission. Our 
nominee currently works as the Director of the Office of 
Criminal Investigations at the U.S. Food and Drug 
Administration.
    Mr. Roth, before you proceed with your statement this 
morning, Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, and I am 
going to ask you if you would stand and please raise your right 
hand.
    John Roth, do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Roth. I do.
    Chairman Carper. You may be seated.
    You are welcome to proceed. Sometimes, we ask witnesses to 
limit their statements to 5 minutes. Feel free to go beyond 
that, and if you would like to introduce your family again and 
any other guests that are here today, please feel free. Please 
proceed.

    TESTIMONY OF JOHN R. ROTH,\1\ NOMINATED TO BE INSPECTOR 
         GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you, Chairman Carper, Ranking Member 
Coburn, and Members of this Committee. It is an honor to be 
considered by this Committee as the President's nominee for 
Inspector General for the Department of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roth appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    I would like to recognize and thank my very supportive 
family. As you mentioned, my wife, Monique, is here, as well as 
my two sons, John and Michael. I have learned more about 
integrity and leadership from my family and from raising my 
children than I could have possibly imagined before I began 
that journey. They have kept me grounded and they serve as 
important reminders of the importance of what we do here today.
    I would also like to take this time to acknowledge the 
contribution of my parents, Richard and Corinne Roth, who have 
been married to each other for over 60 years. They could not 
make the trip from Colorado to be here today, but I know that 
they are watching, and I am grateful for the qualities that 
they have instilled in me--honesty, perseverance, and a strong 
work ethic.
    I would also like to thank the Members of the Committee and 
their staff for taking the time to meet with me. I found that 
very productive, and if confirmed, I look forward to continuing 
this dialogue.
    I am under no illusions about the challenges that the next 
Inspector General will face. Ten years after its creation, DHS 
is still finding its way. I have reviewed the GAO reports, the 
DHS Inspector General reports, and the congressional hearings, 
including hearings of this Committee, that lay out many of the 
issues that need to be addressed.
    If confirmed, I welcome that challenge. I have a quarter-
century of experience as a prosecutor and a manager at the 
Department of Justice and as the leader of FDA's criminal 
enforcement efforts. This has given me an analytical mind, a 
nose for facts, and a judgment tempered by years of experience 
to be able to draw solid conclusions from those facts.
    I also have what I think is unique experience in examining 
and assessing government programs. I led the team on the 9/11 
Commission looking into the government's preparedness in 
response to the 9/11 attacks as it relates to terrorist 
financing. In the end, our team produced a specialized 
analytical report. That report was universally acclaimed for 
its accuracy, its conciseness, and its utility by several 
Committees of Congress, by the Administration at the time, and 
by members of the public and outside experts.
    Moreover, I have experience and insight into financial 
audits that every Inspector General's Office conducts. Both at 
the FDA and at DOJ, we employed auditors and forensic 
accountants to help us unravel significantly complex financial 
schemes.
    I have long involvement with the Inspectors General 
community, as well. As Chief of the Fraud and Public Corruption 
Section in the U.S. Attorney's Office just blocks from here, 
our office was ``IG Central.'' We had active investigations 
with an entire range of Inspector General Offices, including 
those at State, Labor, Interior, Justice, Education, Homeland 
Security, United States Agency for International Development, 
Defense, Transportation, Health and Human Services (HHS), 
Housing and Urban Development, General Services Administration, 
and a host of others. The matters we investigated included 
program fraud involving millions of dollars and corruption and 
ethical lapses by individuals within those agencies, including 
agency heads. In my current position at the FDA, we conduct 
numerous joint investigations with our partners at the HHS 
Inspector General's Office. Finally, as part of the senior 
management team in a number of roles at the Department of 
Justice, I had the opportunity to observe firsthand a very 
well-respected and effective Inspector General's Office.
    Each of these positions has given me insight into effective 
management and leadership. I have faced a variety of leadership 
challenges in which I was called on to turn an organization 
around. Each time, I was able to create a cohesive, high-
functioning team focused at the mission on hand.
    As you note, the Office of Inspector General has endured a 
tough couple of years. I have read the media reports and the 
publicly available correspondence regarding the issues 
surrounding the office. I want the men and women who work in 
that office to be proud of where they work.
    If I am confirmed, I will work to ensure that the Office of 
Inspector General is viewed as the independent, credible voice 
that it was designed to be.
    If I am confirmed, I will work to ensure that the employees 
within that organization are empowered to succeed and will 
focus on things that matter.
    If confirmed, I will listen to those inside and outside the 
organization for working to make the office better so we can 
make the government more effective, more efficient, and more 
responsive to the American taxpayer.
    If confirmed, I will ensure that it becomes a more 
transparent place, a better place to work, and one that 
provides real value to the DHS mission.
    And, finally, and most importantly, and which I will never 
compromise, I will ensure that we are objective and independent 
in everything that we do.
    That concludes my statement. I am happy to answer any 
questions the Committee may have.
    Chairman Carper. Great. Thank you for an excellent 
statement.
    Let us just start off by going back in time, looking back 
before we look forward. You mentioned in your testimony some of 
the values that you learned from your parents. I think you 
mentioned three of those, integrity, perseverance, and work 
ethic. Talk to us about how you learned those values from your 
mom and dad and how they pertain to the job that you are now 
being considered for.
    Mr. Roth. Certainly, and that was one of the fundamental 
lessons that I learned from my parents. I am the last of five 
children and I would be remiss if I did not mention----
    Chairman Carper. Before you answer, I need to ask you three 
pro forma questions and then we will go back to the question I 
just asked you.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Roth. No.
    Chairman Carper. OK. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Roth. No, sir.
    Chairman Carper. OK. And, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before duly constituted Committees of Congress if you are 
confirmed?
    Mr. Roth. Yes.
    Chairman Carper. Thank you. All right. Let us go back to 
the question I asked--integrity, perseverance, work ethic.
    Mr. Roth. Sure. I am the last of five children and I would 
be remiss not to mention my brothers and my sister, Tom, Tim, 
Michael, and Mary Kathryn. We were all instilled with a very 
hard work ethic--except for my sister, we all caddied in a 
local golf club starting at the age of 14, and hard work was 
important. Working hard at school, but working hard outside of 
school was very important. And those kinds of qualities 
extended beyond. As a trial lawyer----
    Chairman Carper. Where did you go to, Wayne State, 
undergrad and law school?
    Mr. Roth. Yes, I did.
    Chairman Carper. Did you help pay your way through school?
    Mr. Roth. Yes, I did.
    Chairman Carper. How did you do that?
    Mr. Roth. In undergrad, I did a variety of jobs. The most 
prominent one was I worked in the library, not as a librarian 
or anything academic but more unloading boxes of books from the 
loading dock, as well as working at the university book store, 
a variety of odd jobs. I was fortunate enough that Wayne State 
was able to give me a scholarship for law school, so that was 
the way I was able to make that work.
    Chairman Carper. OK. Good.
    Mr. Roth. But, as I was indicating, hard work was 
important, and as a trial lawyer in the Department of Justice, 
I got by not by good looks or being flashy in the courtroom, 
but by doing the hard work and the necessary investigation and 
beating the streets and making sure that I had my evidence in 
order to be able to make the case. And, again, it is hard work, 
sweating the details, getting it right. Those are the kinds of 
values that my parents have instilled in me.
    Chairman Carper. Relate those values, if you will, to the 
job that lies ahead.
    Mr. Roth. Certainly. I mean, I think it is important for an 
Inspector General to pay attention to details, to work hard, to 
ensure that his staff works hard, to produce reports that are 
timely, that are accurate, and that are helpful both to the 
Committee and to the Administration.
    Chairman Carper. All right. You had a lot of jobs, and one 
more question I would ask you is why have you had so many 
different jobs?
    Mr. Roth. Yes. I like to say that I worked for the 
Department of Justice for 25 years, and each one of the times 
that I have moved, it was as a result of a promotion or gaining 
more responsibility, making a better contribution to the goals 
of the Department of Justice. So, when an Alice Fisher, for 
example, asks you to come and serve for her during a time of 
great chaos, for example--I would not say chaos, but a time of 
great uncertainty in the change of Administration, likewise, 
when the Deputy Attorney General asks you to be his Chief of 
Staff, a career Chief of Staff in what is normally a political 
position because of the changes that were going on and the 
uncertainty, it is hard, certainly, to say no to that.
    Chairman Carper. And you had a short stint--well, a 2-year 
stint, I think--over in Paris.
    Mr. Roth. That is true.
    Chairman Carper. Tough assignment. How did you end up over 
there?
    Mr. Roth. Two-and-a-half years. My wife was the Justice 
Department Attache in Paris. Her father is a Foreign Service 
Officer (FSO) and she grew up in Europe and we wanted to give 
the same kinds of experience that she received to our children. 
So, we were fortunate enough to be able to get two jobs over in 
Paris to be able to do that.
    Chairman Carper. That is pretty good duty.
    Mr. Roth. It is good to marry well, Senator. [Laughter.]
    Chairman Carper. Let us talk about maybe the first 30 days, 
first 60 days, first 90 days if you are confirmed. And Dr. 
Coburn said to me just before we were getting into the Q and A 
that he thought maybe this is a nomination we could mark up off 
the floor, and that would be great if we could do that even 
this week. That would be great. But, just talk about the next 
30, 60 days after you are confirmed, if you are confirmed, 
hopefully.
    Mr. Roth. Certainly. It has been my experience that when 
you go into any job, you need to do some diagnostics. You need 
to understand what the situation is before you can make any 
significant changes. And I think a good leader needs to listen. 
He needs to listen to the people who work for him. He needs to 
listen to his management team. And he needs to listen to 
stakeholders, both within DHS and outside of DHS, to understand 
exactly what the situation is.
    So, I intend, if I am fortunate enough to be confirmed, to 
spend that first--and I do not know how long it will take 
because some of it will simply depend on what it is that I 
find--that first period of time doing some analysis and 
understanding exactly what the situation is.
    Now, there are certain issues, of course, that will just 
come up immediately and we will simply have to deal with those 
as I find them.
    Chairman Carper. In looking at your background, one of the 
folks you worked for along the way was former Congressman Lee 
Hamilton----
    Mr. Roth. Yes.
    Chairman Carper [continuing]. Who was, I think, Co-Chair of 
the 9/11 Commission. He was, believe it, one of my mentors in 
the U.S. House of Representatives where I served, and Dr. 
Coburn and some others on this Committee served. Talk to us 
about the mentors that you would look to to help guide you and 
help you prepare for these new responsibilities--maybe you have 
already met with, talked with, and who you expect to look to 
for guidance and counsel in the days ahead.
    Mr. Roth. Yes. Certainly, one of the things that I have 
done is in the job that I have had in the Justice Department, I 
have been able to be fortunate enough to meet with a number of 
Inspectors General in preparation for this hearing and hopeful 
confirmation. I have met with a number of them. Michael 
Horowitz, for example, at the Department of Justice is somebody 
I worked for when I was in the Criminal Division, and there are 
a number of others that I have met with, including Rick 
Skinner, the former Inspector General in the Department of 
Homeland Security, who I knew, again, when I was at the U.S. 
Attorney's Office in D.C. and we worked together. So, there are 
a number of people and a reservoir of expertise that I can draw 
on to move forward on this.
    Chairman Carper. I will ask this last related question and 
then turn to Dr. Coburn, but of the folks that you have already 
met with or talked with, including some of the folks who you 
just named, what are some things you have learned from those 
conversations?
    Mr. Roth. That the job of Inspector General is a very 
difficult one to get right, but it is a very important job to 
get right. And, as I said, I am going to move with due care, 
deliberate speed, talking to the folks who have done this 
before to understand the best way to move forward.
    Chairman Carper. All right. Thanks very much. Dr. Coburn.
    Senator Coburn. Well, thank you again. One of your 
statements made in your opening statement, that you would work 
to avoid any undue influence, how do you do that when you have 
a Member of Congress or a significant management officer at 
Homeland Security trying to influence you? How do you put that 
off?
    Mr. Roth. Right. Well, I mean, one thing is an 
understanding of the Inspector General Act, and Congress passed 
the Inspector General Act and it had the recent amendments to 
the Inspector General Act to insulate the Inspector General 
from exactly that. So, I take great comfort in the fact that if 
I am confirmed, there are statutory protections that are there.
    I would also say that the ethos of at least a line 
prosecutor in the Department of Justice is that you follow the 
facts wherever they go. Whether the heavens fall or not, you go 
and you find the truth. So, that has been my credo throughout 
my career. There is no reason it should change if I am 
fortunate enough to be confirmed.
    Senator Coburn. How do you imagine you will handle 
inquiries from Congress about investigations or audits?
    Mr. Roth. I mean, that is something, certainly, that we 
will have to take a look at. In speaking, for example, to 
former Inspector General Skinner as well as current Inspectors 
General, there is a fairly firm rule that we do not disclose 
the results of investigations until the investigation is final, 
and there is a number of good reasons why that is the case, 
particularly because you do not want to get it wrong. It does 
the Inspector General no good. It does Members of Congress no 
good if we put out piecemeal information that lacks context or 
may, in fact, be inaccurate. So, that would be one of the rules 
that the former Inspector General conveyed to me, which I think 
is very wise counsel which I am going to follow if I am 
confirmed.
    Senator Coburn. One of my concerns, and it is not just with 
the IG at Homeland Security, is, oftentimes, the findings of 
IGs on very good work is criticized by Members of Congress 
because they disagree with the outcome. And one of the things 
that concerns me is that those IGs do not come and defend their 
product, which also leads to poor morale, because if you have a 
group of people that work for a year or a year-and-a-half on a 
project and it is factually based and cogently deduced, and 
then it is put out and it receives criticism because it is not 
the expected outcome, and if the IG does not vigorously defend 
that work product, that undermines morale.
    It is my hope that when you all put out a product and it is 
criticized for political reasons, not factual reasons, that 
you, in fact, will defend that. Do you have any comments about 
that?
    Mr. Roth. I take your advice to heart, and I believe that 
is good advice and that is something that I will do. I am a 
trial lawyer by heart, or by profession, so I am used to----
    Senator Coburn. And by heart,
    Mr. Roth. Yes, exactly. So, I am used to defending myself--
--
    Senator Coburn. Yes.
    Mr. Roth [continuing]. And I am more than happy to--facts 
are what facts are and we will let facts speak for themselves.
    Senator Coburn. One of the things you did when you worked 
at DOJ was facilitate the agency review process for IG reports. 
You noted the importance of an agency component being given 
sufficient time to comment prior to issuing the report, and I 
think that is important, too, because IGs do not always get it 
exactly right. How do you view the current comment period at 
DHS OIG, and do you think DHS has enough time right now? How 
much time should they have to comment, and would you recommend 
any changes to the process?
    Mr. Roth. My understanding is that the internal deadline is 
a 30-day deadline for comments, and again, it is going to be a 
balancing act, depending--you certainly want to get a product 
out in time for it to be relevant to the Committee or to the 
public or to the Administration. But, as you indicate, it is 
important to get it absolutely right. My understanding is that 
the 30-day time period can be waived under certain 
circumstances. So, I really think it will depend on sort of the 
complexity of the report, the seriousness of it, and whether or 
not there is controversy attached to it.
    Senator Coburn. OK. Thank you.
    In November, I sent a letter to Acting Deputy Secretary 
Rafael Borras asking about the status of DHS's open 
recommendations, and according to the IG's Office, the 
Department had 1,239 open and unimplemented recommendations as 
of March 13, 2013. They could not tell us as of November, which 
is concerning in and of itself. Some of those recommendations 
are over 10 years old. What is your feeling about that, and how 
do you plan to followup and effectively move on those 
recommendations, whether you use us as a capability of trying 
to get that done or internal to your office?
    Mr. Roth. I share your concern, Senator, with regard to 
that. It makes no sense to spend the resources and time to 
write reports and make recommendations if they are not going to 
be followed or not even agreed to. And, if I am confirmed, I 
think the first thing that I would need to take a look at is in 
that long list--I mean, one, is this a capacity problem? Is 
this a political will problem, because each of those problems 
are different. So, my intention would be, if I am confirmed, to 
get with the senior leadership within DHS to try to do some 
triage on those recommendations to understand what it is that 
needs to be done.
    I also think that, if I am confirmed, that the IG's Office 
needs to pay a little bit more attention to follow-up, have 
some sort of feedback loop in which we have ticklers where, if 
things are not progressing as they are supposed to, we can 
write reports or notify the Committee or bring it to the 
attention of the senior leadership within the Department.
    Senator Coburn. OK. There is a large backlog of cases with 
the DHS OIG. I will not go into details because some of these 
are law enforcement sensitive. One of the challenges you are 
going to face is this backlog on open corruption 
investigations. Do you have any thoughts about how to handle 
that workload?
    Mr. Roth. Certainly, if I am confirmed, I would like to go 
in and have a good talk with the Assistant IG for 
Investigations to understand, do you have the resources? Are we 
overloaded in certain ways? Is there a way we can do this? This 
is a continual problem for investigative agencies as well as 
prosecutors' offices. I am well familiar with having a 
significant case backlog. When I was the U.S. Chief of 
Narcotics in Miami, it was the busiest narcotics office in the 
country. So, managing caseloads is a constant problem. It 
requires just constant attention.
    Senator Coburn. And priority setting.
    Mr. Roth. Exactly.
    Senator Coburn. All right. I have two more small questions, 
if I might, and then I can be finished.
    In October, the U.S. Office of Special Counsel released a 
report that indicated a large amount of administratively 
uncontrolled overtime fraud by the Department employees at DHS. 
This is about $1.9 billion since 2010. It is unknown how 
prevalent this fraud is within the rest of the Department. Are 
you aware of this issue, and if confirmed, would your office 
investigate this?
    Mr. Roth. I have read the media reports with regard to 
that, so I am aware that this issue is out there and I am 
certainly happy to take a look at it, if I am confirmed, and 
see what it is that the IG's Office can do.
    Senator Coburn. And then my final comment: As you know, 
there is an ongoing investigation by the IG's Office on the 
Deputy Secretary. It is important that that be completed--one, 
that it be accurate for the benefit of Mr. Mayorkas, and two, 
that it is completed in a prompt manner and in a way that 
nobody can attest or challenge its scholarly basis. What I 
would like is a commitment from you publicly today that that 
will be a priority, because it is unfair for him to be in his 
position and that investigation to continue.
    Mr. Roth. Yes. If I am confirmed, that will be a top 
priority.
    Senator Coburn. Thank you.
    Chairman Carper. As we say in political campaigns, I am Tom 
Carper. I approve that message, so all right.
    Senator Johnson has joined us. Senator McCain has joined 
us. In the order of folks showing up, it will be Senator 
Tester, Senator Enzi, Senator Johnson, and last but not least, 
Senator McCain. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Once again, thank you for being here today, John. You have 
talked about your expertise in criminal investigations and I 
think it is solid. In your opening statement, you talked about 
your experience with audits, particularly financial audits. 
Could you elaborate some more on your expertise in audits and 
investigations, or inspections, I mean, as it applies to this 
job.
    Mr. Roth. Certainly. I think probably the best analogous 
experience I can give you is my work on the 9/11 Commission, 
where we ran the team that looked at the terrorist financing, 
and it really was a governmentwide audit. It was not of a 
single agency or a single component within an agency, but it 
was of the entire U.S. Government structure, how it worked--how 
terrorist finance worked in the intelligence community, how it 
worked in law enforcement, how it worked in diplomacy, how it 
worked as the policymaking apparatus, how it worked as a 
regulatory effort, as well.
    So, we spanned dozens of different agencies, looking at 
this. We wrote a report. It is very analogous to a criminal 
investigation in many ways. You review documents. You interview 
individuals. It is just the product happens to be different. 
The standards are not ``beyond a reasonable doubt'' but whether 
or not you are well founded in your conclusions. And, of 
course, it is important to get the report right, make it 
readable, make it understandable not only to the intended 
audience of experts but as well as the general public.
    If you look at the kinds of things that I would do if I was 
confirmed, you can look at that as an example.
    Senator Tester. How long did that governmentwide audit 
take?
    Mr. Roth. It took approximately 14 months. At least, my 
part of it took approximately 14 months.
    Senator Tester. And then that is when they put out the 
results, was--do you remember?
    Mr. Roth. Yes. I do not want to be precise, exactly, but--
--
    Senator Tester. No, give me a ballpark.
    Mr. Roth [continuing]. It was approximately 14 to 18 
months.
    Senator Tester. So, from a timeline standpoint, and we hate 
to put timelines around investigations, but the fact is, what 
kind of standard do you set as far as IG work? I mean, when do 
you like to have it done? And I know there is complexity, but 
what is the extended time?
    Mr. Roth. Senator, I wish I could give you an answer that 
says an investigation should take 6 months. The difficulty is--
--
    Senator Tester. Got you.
    Mr. Roth [continuing]. It just depends on the 
investigation.
    Senator Tester. How about FDA? I mean, what has been the 
longest? What has been the shortest?
    Mr. Roth. We resolved an investigation that was out there 
for 6 years a couple months ago, and, we have quick hit 
investigations that take a matter of months. And some of it 
depends on are you trying to get evidence from somebody who 
takes their time giving you evidence, for example? Are you 
having trouble gathering documents? Are witnesses available to 
you? Unfortunately, I----
    Senator Tester. Got you.
    Mr. Roth [continuing]. I wish I could give you an answer, 
but I cannot.
    Senator Tester. That is fine. I appreciate the Ranking 
Member talking about the overtime issue because it is a big 
issue, and I appreciate your willingness to look into it. I 
think we have potential to have a legislative fix. It is 
sitting in Homeland Security and OMB right now, and hopefully, 
we can get their perspective out sooner rather than later 
because it is a big issue and I am glad you are willing to deal 
with it.
    I want to talk about cybersecurity for a second because 
there are huge investments being made in DHS in technology, 
billions of dollars. Back in 2011, the DHS IG released a report 
saying that the Federal Emergency Management Agency (FEMA) 
information technology (IT) infrastructure management were not 
sufficient to support their mission. We wrote a letter on this 
Committee to Secretary Janet Napolitano saying that if FEMA 
could not continue to manage its IT systems and future 
investments with a ``do it your own way'' approach, which is 
spot on--this is not the first time that we have talked about 
IT problems, systems that are not compatible with the greater 
goal of the Department.
    What kind of emphasis have you or will you place on IT when 
it comes to DHS? What have you applied to FDA as far as waste, 
overlap on these programs that literally cost billions and 
billions of dollars?
    Mr. Roth. Sure. Well, in the Office of Criminal 
Investigations, we run our own IT shop, both the IT that we 
need to do our daily job, which includes some specialized 
databases and the like, as well as doing the forensics IT in an 
investigation, for example, with seized computers or Internet 
investigations.
    I know that the Office of Inspector General has done quite 
a bit of work in this area. I know that there is a report that 
was recently released with regard to the efforts in the 
Department with regard to this. It was a fairly mixed 
scorecard, that there had been progress made but significant 
progress to be done. And certainly, if I am confirmed, I would 
continue that work.
    Senator Tester. What kind of work did you do in IT with the 
FDA? That had to be a fairly large component in FDA, as I would 
imagine.
    Mr. Roth. It was. Because the Office of Criminal 
Investigations is sort of a sub-unit, we ran our own IT shop. I 
would not call it extensive, though.
    Senator Tester. OK. All right. Well, once again, I want to 
thank you for your willingness to serve and thank you for being 
here today, and hopefully, we can both hope for a quick 
confirmation. Thank you.
    Chairman Carper. Thanks, Senator Tester. Senator Enzi.

               OPENING STATEMENT OF SENATOR ENZI

    Senator Enzi. Thank you, Mr. Chairman.
    Thank you, Mr. Roth, for being here. I am pleased to see 
that you have experience with several financial investigations 
like September 11, 2001, that go beyond the usual audits that 
Inspectors General make. I am an accountant by training, as is 
my colleague, Senator Johnson, and one of the things being an 
accountant will teach you is that numbers do not lie. You can 
use your experience investigating fraud, money laundering, 
financial corruption, as well as inefficiency, duplication, and 
wasteful spending of taxpayers' dollars at the Department of 
Homeland Security.
    In November, about the time you were nominated, the 
Government Accountability Office reported that the 
Transportation Security Administration (TSA) program for 
screening passengers by behavior detection techniques cost $900 
million since 2007 but was ineffective at improving safety. 
Would you agree this is an example of the kind of program that 
you could be proactively looking at?
    Mr. Roth. Yes, Senator, you are----
    Senator Enzi. How would you do it?
    Mr. Roth. You are referring to the Screening of Passengers 
by Observation Technique (SPOT) program, I believe, and the 
Inspector General's Office, in fact, wrote a report with regard 
to that--actually, several reports regarding the fact that, 
currently, TSA does not have any measures of effectiveness. 
They do not know exactly whether or not the program works as 
intended. I also have reviewed some GAO audits with regard to 
that which have essentially come to the same conclusion.
    So, you are correct to be concerned, and if I am confirmed, 
I certainly will continue the work in coordination with GAO 
that the Inspector General has already done.
    Senator Enzi. OK. Thank you. So, whistleblowers can also 
play an important role in identifying waste, fraud, 
duplication, and unnecessary programs, and so in addition to 
reporting potential illegal activities, I am glad you have 
indicated that you want to take whistleblowers seriously. What 
do you think is the best way to encourage the DHS employees and 
members of that community to come forward with ways to help the 
organization run more efficiently?
    Mr. Roth. I know that the Inspector General community has 
standards by which they encourage whistleblowers to come in, 
for example, tip lines, 1-800 numbers, things that they can do 
on the Web site to encourage people to come in. There is also a 
publicity campaign within the agency, or within the Department, 
to ensure people understand what their rights are as 
whistleblowers. And, ultimately, I think, what people will see 
is that if we treat whistleblowers seriously, we treat them 
with the kinds of sensitivity that is necessary when you are 
dealing with a whistleblower, then they will come in.
    Senator Enzi. OK. Thank you. Now, the Transportation 
Administration is also expanding prescreening of passengers 
before they arrive at the airport, and that is supposed to 
streamline the security for many passengers. But there are 
concerns that it includes a wide array of personal information, 
including financial information, tax information, property 
records, all sorts of things, and a lot of people are telling 
me that they wonder what is being done with all that 
information that is collected on the passengers. What do you 
see as the limits of the kind of intelligence gathering on U.S. 
citizens by the TSA or other agencies in the Department of 
Homeland Security?
    Mr. Roth. I am not familiar with the specifics that you are 
referring to, Senator, but certainly, privacy is important and 
we need to balance, obviously, individual liberties with the 
safety of the traveling public. I am more than happy to take a 
look at this and explore that with the Committee, if you so 
choose.
    Senator Enzi. So, you would work proactively to identify 
any of this data collection that is not necessary for passenger 
safety?
    Mr. Roth. Yes.
    Senator Enzi. Thank you. I do not have any other questions.
    Chairman Carper. Thank you, Senator Enzi. Senator Johnson.
    Senator Coburn. Just one note for the record.
    Chairman Carper. Sure. Please.
    Senator Coburn. There are three accountants sitting at the 
dais.
    Senator Enzi. Yes. [Laughter.]
    Senator Coburn. I just wanted to be sure I was recognized.
    Senator Johnson. I was actually going to point that out, 
Senator Coburn. [Laughter.]
    Chairman Carper. All right. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Roth, thank you for taking the time, coming in and 
seeing me in the office. I am very pleased with this 
nomination. I think your background is going to suit you well 
for the challenge ahead.
    I thought it was interesting. You said you have read an 
awful lot of these reports and you understand the challenges. 
God bless you for still being willing to serve here.
    Senator Coburn started talking about how you are going to 
prioritize your activities here. Can you just talk about the 
criteria you are going to use in prioritizing the caseload?
    Mr. Roth. Sure. I have a deep background. There are always 
more cases than there are resources in the Department of 
Justice, so it is second nature to have to prioritize things. 
And typically, the way we prioritize them is by risk, and not 
only sort of public safety risk, but I think the Department is 
facing two challenges. One is, of course, to fight terrorism, 
which is an existential threat that we can never disregard or 
minimize. But there is also the threat that faces us with 
regard to the financial situation that we find ourselves. So 
the other way I would prioritize it is the threat to the 
taxpayer, the kinds of money that are going out and the 
potential savings that an investigation could have.
    Senator Johnson. So, level of threat and the dollar value.
    Mr. Roth. Correct.
    Senator Johnson. Obviously, you report to the Secretary of 
the Department. Who do you think you work for? Can you just 
kind of, just in general, what your feeling is, if you 
understand the thrust of my question.
    Mr. Roth. I do, and this is something that I have had 
conversations with a number of Inspectors General about, 
because that is the fundamental challenge of a position like 
this, is that you report to--not only do you report to the 
Secretary of the agency in which you work, but you also report 
to Congress. It is a dual reporting requirement by statute. 
And, ultimately, for me, I have to report to myself. I have to 
do the job that I believe that I was hired to do by the 
American people. And it is going to have to happen on a case-
by-case basis, and I will try to figure these things out as we 
go.
    Senator Johnson. We were talking earlier about how you 
handle reports and how the agencies, the time they are allowed 
to review the reports. I would like you to address how, then, 
should those agencies--how should that be included in those 
final reports. What is the appropriate way for that to be 
incorporated?
    Mr. Roth. My understanding is that the general way it is 
done in the Inspector General community, as well as the GAO, is 
that you conduct your investigation, you write your report, and 
then you give the agency an opportunity to comment on it. And 
the reason you do that is it is critically important that you 
get your facts right. So, to the extent that they want to 
change facts or argue about the facts, perfectly happy to do 
that, if I am confirmed. Obviously, conclusions have to be 
Inspector General's conclusions and no one else's.
    Senator Johnson. Would those facts be actually changed in 
the reports, or does the report stand as published by the IG's 
office and then those comments or the changed facts would be as 
an addendum to that?
    Mr. Roth. They would actually be changed within. My 
dealings, for example, with Glenn Fine, the former Inspector 
General in the Department of Justice, was that you could 
actually do a line edit of the report itself, not changing 
facts, but you are changing language within a report, and then 
if you have arguments as to the conclusions that those facts 
reasonably lead you to, that would be an attachment to the 
Inspector General's report.
    Senator Johnson. You are aware of the problems within the 
IG's Office, and I see the Chairman of my Subcommittee on 
Financial and Contracting Oversight has just joined us here. We 
will be publishing a report. I do not want to talk about 
specifics until we actually publish it. What would be your 
intentions in terms of how you would handle a report, and maybe 
that is not a particularly fair question, but there are some 
real problems of independence, some improper behavior. Is that 
something you are going to be dealing with, or is that 
something you push off to the Council of the Inspectors General 
on Integrity and Efficiency (CIGIE), or----
    Mr. Roth. With regard to the previous management within the 
office, I think I need to take a look at exactly what the 
situation is. I look forward to the report that your 
Subcommittee will produce and I will take a look at the facts 
and determine whether or not it is appropriate for me, it is 
appropriate for CIGIE, it is appropriate for someone else.
    Senator Johnson. OK. But you will work closely with our 
Subcommittee, then, to try and get some fair resolution to that 
situation?
    Mr. Roth. Absolutely, Senator.
    Senator Johnson. You said you have read a number of 
reports. Have you reviewed the culture report from the IG's 
Office on the Secret Service?
    Mr. Roth. I have.
    Senator Johnson. What was your conclusion, reading that?
    Mr. Roth. To be fair, Senator, I would really like to talk 
to the people who wrote that report and understand exactly what 
was going on before I comment on it.
    Senator Johnson. OK. It did conclude that they did not find 
any evidence that misconduct is widespread in the U.S. Secret 
Service. Is that kind of the feeling you got from that report, 
that the report was substantive enough, that it was rigorous 
enough to be able to draw that conclusion?
    Mr. Roth. It is a long report and I think there are facts 
on both sides of that conclusion as you read that report. For 
example, the individuals who, for example, had witnessed 
solicitation of prostitution, none of them reported to the 
supervisors, and the reason the vast majority of them did not 
report it is that they believed either that they would be 
retaliated against or that nothing would occur. But, again, I 
do not want to get into the substance of that report----
    Senator Johnson. Sure.
    Mr. Roth [continuing]. Until I actually talk to the 
authors.
    Senator Johnson. Let me just go over a couple of numbers, 
because I am an accountant and I do like numbers. Sort of the 
basis of the conclusion was really a voluntary survey, 41 
percent of the personnel in the Secret Service responded to 
that. So, 41 percent. Of that, 83 percent said they were not 
familiar with that kind of behavior, which means that 17 
percent were familiar with that kind of behavior. So, the 
survey was answered by 2,575 employees. Twenty-one-hundred-and-
forty-four said they were not familiar with that behavior, but 
that means 431 members of the Secret Service personnel actually 
were familiar with that kind of behavior.
    So, I guess my point would be, I am not sure I would draw 
that same conclusion, so I am still concerned. I remain 
unconvinced during the hearing we had in May 2012 that this may 
not be a bigger problem in the Secret Service. I think it is 
incredibly important that we restore the credibility of that 
agency, so I hope you will also work with us in terms of 
getting to the bottom of that situation, as well.
    Mr. Roth. I am happy to.
    Senator Johnson. OK. Thank you, Mr. Chairman.
    Chairman Carper. Before I turn to Senator McCain, we had a 
hearing here, about a year ago, and the Director of the Secret 
Service Mark Sullivan was here to testify with respect to 
Cartagena. And at the end of my conversation, my questioning of 
him, I recounted the story of the parable in the New Testament 
where a woman was about to be stoned and Jesus said to those 
who would stone here, ``Let those of you without sin cast the 
first stone,'' and everybody eventually dropped their stones 
and walked away. And then He turned to the woman who was about 
to be stoned and He said to her, ``Go and sin no more.''
    My admonition to the Secret Service was, go and sin no 
more, and the interesting thing for me is looking ahead, not 
just what happened, but in terms of the behavior that flows or 
the change of the behavior that has flowed from that incident. 
I am interested in looking and learning with Senator Johnson, 
and certainly with Senator McCaskill, about the changes in 
behavior and maybe changes in culture that have flowed from the 
investigation, all the attention and the change in management 
in that agency.
    All right. Senator McCain, good to see you.

              OPENING STATEMENT OF SENATOR McCAIN

    Senator McCain. Thank you, Mr. Roth. You bring, I think, 
great credentials to your position. I was reading your opening 
statement. You said you lead the team in the 9/11 Commission 
looking into U.S. Government preparedness and reaction to the 
9/11 attacks as it related to the financing of terrorism. How 
are we doing since then?
    Mr. Roth. Unfortunately, Senator, I have not been close to 
the data or the intelligence since I wrote that report, so it 
is difficult for me to conclude one way or the other.
    Senator McCain. DHS has experienced a number of serious 
acquisition failures. The most egregious in my view was the 
failed SBInet project, a virtual fence that was supposed to 
encompass the entire border. It cost the taxpayers a billion 
dollars and covers only 53 miles. I would hope, and I 
admittedly speak in a very parochial viewpoint, I hope you will 
look at the measures that are being taken and expenditure of 
tax dollars on border security. The border in my State is still 
not secure. We have spent billions of dollars on border 
security and I believe that the SBInet is a scandal. It was a 
scandal when you spend over a billion dollars and end up with 
53 miles of surveillance capability.
    I hope that one of your priorities would be to look at the 
whole issue of what we are doing on the issue of border 
security. There is still an enormous flow of drugs across our 
Southern Border. There are still problems, serious problems, 
with human smuggling and all of the terrible aspects of that, 
the mistreatment of these people by the coyotes. The violence 
in Mexico continues as a result of that. And I know of no one 
who has intimate knowledge of our Southern Border who would 
agree that we have increased sufficiently border security for 
us to tell the American people that we are at least within 
range of compliance with the comprehensive immigration bill 
which we passed which requires 90 percent--quote, ``90 percent 
effective control of our border.'' We do not have that.
    Another aspect of this I would like you to look at is the 
metrics with which we measure border security. Before this 
Committee, the former Secretary of Homeland Security testified 
that because apprehensions were down, that meant that our 
border was more secure. Well, we know now that because of the 
economic recovery, primarily, apprehensions are up. Does that 
mean, therefore, that our border is less secure? Obviously, we 
do not have metrics to determine the degree of border security 
that we have.
    I think that it is pretty logical to argue that if we do 
not have a secure border, that sooner or later, someone who 
wants to commit an act of terrorism will come across a border 
that is not secure. I think that it falls directly into the 
issue of national security, the issue of security of our 
border.
    And, by the way, our commerce and our trade with Mexico has 
dramatically increased. We have a good government in Mexico 
now, in my view. But we still have not, in the estimate of the 
people that I know who are living and working on the border, 
anywhere near the adequate security of our border that would be 
necessary to be able to ensure to our citizens that they have a 
sense of security and ability to prevent another attack on the 
United States of America. I would like to hear your response to 
that.
    Mr. Roth. Yes, Senator. I share your views that an 
unsecured border is pernicious for a number of reasons. I am a 
former narcotics prosecutor and investigator and I am well 
familiar with the challenges on the Southwest border with 
regard to narcotics trafficking. And as you indicated, it is a 
magnet for organized crime, for human trafficking, for all 
sorts of criminal behavior.
    DHS, from my view and my review of the materials, spends a 
lot of money attempting to secure the Southwest border. I think 
it is important to be able to have metrics, to understand 
whether or not we are getting what we asked for or what we are 
spending our money on, so I am happy to take a look at that 
issue and see if the Office of Inspector General, if I am 
confirmed, can add to that analysis.
    Senator McCain. Well, I hope you will, because a rather 
extraordinary thing happened in the confirmation of the new 
Secretary of Homeland Security, and that is he refused to give 
this Committee, me or Members of this Committee the metrics 
that are required to comply with the law that we passed of 90 
percent effective control of our border, probably one of the 
first outcomes of the so-called ``nuclear option,'' because 
under a previous situation, I would have insisted on receiving 
that information, which I think is a legitimate request by 
Members of Congress, which leads me almost not to have come to 
this hearing today or any other hearing that the Secretary of 
Homeland Security is present, because if he refuses to give 
fundamental information that is necessary for me to represent 
the people of my State as far as border security is concerned, 
we have made a mockery of the advise and consent.
    And I say to my good friend, the Chairman, again, I am 
deeply disappointed that you would not insist that I receive 
that fundamental information, and it will affect the degree of 
cooperation or the ability to work together.
    I thank you, Mr. Roth.
    Mr. Roth. Thank you.
    Chairman Carper. Let me just say, in response to Senator 
McCain's last comments, I am eager to see the Department and 
the Secretary provide the information you have requested. I 
expect you will hear from him shortly as the Secretary with an 
offer to discuss with you just how to go about providing that 
information. And when he makes that overture, I just would 
encourage you to be receptive. Thank you.
    All right. And next, Senator Ayotte, followed by Senator 
McCaskill.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Mr. Roth. I am very impressed 
with your qualifications for this position.
    Let me just add that--echo what my colleague, Senator 
McCain, just said. One of the things that really troubled me, 
as well, in terms of the recent change in the rules, not only 
that my colleague could not get a fair answer to his question 
to the Secretary of Homeland Security, but also that we--I know 
that you have already been asked about it by Senator Coburn--
but that we took the unprecedented step of confirming a Deputy 
Secretary to the Department of Homeland Security who was under 
active investigation by the OIG, and I do not think we would 
have previously done that but for the change in these rules.
    And so let me just add to what Senator McCain said, that I 
very much hope that we can get answers to legitimate questions 
that our constituents have, and I hope in your new position you 
will take very seriously that this investigation, despite 
confirmation, should not be swept under the rug or not followed 
through. I hope you will give us that commitment.
    Mr. Roth. Yes, I will, Senator.
    Senator Ayotte. I appreciate it. Thank you.
    I wanted to ask you about the relationship that OIG has 
with GAO and how you anticipate that relationship would be in 
this new position when you are confirmed, and how important do 
you think GAO is to your work, and also whether you have had an 
opportunity to look at some of the work that is being done on 
data consolidation. There is a tremendous number of data 
centers across government that are being consolidated and that 
DHS is doing a tremendous amount of work on that, of taking 101 
of those and working to consolidate those to 37. What position 
do you think you could help in terms of IG of helping us manage 
the data more efficiently and in particular focusing on saving 
money for taxpayers.
    Mr. Roth. Senator, to answer the GAO question first, if I 
may, during the preparation for this hearing as well as the 
nomination, I was able to read a number of GAO reports with 
regard to Homeland Security and they have done an enormous body 
of work, including the work that they have done on the High-
Risk List. I was fortunate enough to meet with members of the 
GAO prior to this hearing, including the Comptroller General, 
and I am confident that we can work with each other and not 
duplicate each other's efforts, but, in fact, leverage off each 
other's reports to work in a way that makes sense for DHS, for 
this Committee, and for the American people.
    With regard to the data centers, I will confess not to have 
any background in that. I have not reviewed materials on that, 
but I am certainly happy to take a look at that, should I be 
confirmed.
    Senator Ayotte. I appreciate it. Other Members of this 
Committee--most of the Committee, we have worked on this issue, 
to introduce legislation to improve the consolidation efforts 
of the data centers. But this is an area where it is, just 
frankly, a mess, and we could save a tremendous amount of 
taxpayers dollars and, frankly, I think, do a better job on 
this issue. So, I hope you will focus on it in your new role.
    I also wanted to ask, as well, about the issue--I know 
Senator Tester touched upon it--but in October 2013, the Office 
of the Special Counsel of Investigation revealed that some 
Department of Homeland Security employees were abusing an 
administratively uncontrolled overtime pay system and amassing 
millions of dollars in unearned pay. The report found that the 
problem was profound and entrenched.
    This is just one example of, obviously, waste, fraud, abuse 
that you are going to have an incredibly important role in 
revealing. Have you had a chance to review that particular 
report or investigation, and what is your view on it, and what 
do you think you can do in terms of when something is described 
as entrenched, of changing the system?
    Mr. Roth. Certainly. And I have read the reports. I have 
not spoken with anyone, for example, with the expertise of a 
back-up document, so it is difficult for me to opine on exactly 
what is going on. My sense is that it is a statutory problem 
that probably lends itself to a statutory fix, but this is 
something, certainly, I would be happy to take a look at if I 
am confirmed.
    Senator Ayotte. Well, that would be great, and I know that 
I, for one, would look forward to working with you on whatever 
statutory fix needs to be made to ensure that this does not 
happen in the future.
    And then, finally, as a followup, you were asked by Senator 
McCain about your experience on the 9/11 Commission and you 
said that you have not, obviously, been privy to the 
information post-9/11 Commission involvement. I would hope in 
this new position--I would be very interested in hearing your 
impressions once you are able to dig in as to where we are and 
a reassessment of how much progress we have made and what else 
we need to do.
    And one of those issues that I think is important is the 
Boston Marathon bombing. I know that the IG from the Department 
of Justice is looking at the information sharing that went on 
in advance of the bombing with regard to contacts that various 
Federal agencies had with the Tsarnaev brothers. I think that 
in this new position, you could play a very important role in 
terms of the information that may have come to DHS's attention 
and how we can ensure that that information goes all the way 
down to the ground level so that from the officer on the 
street, to our Federal Bureau of Investigations (FBI) agents, 
to our Joint Terrorism Task Force, that we are aware of prior 
contacts like that.
    So, I do not know if you have had a chance to review any of 
that or to have any interaction on this issue involving the 
Boston Marathon bombing, but I believe this is an important 
issue, as well, for your new position.
    Mr. Roth. Yes. I am aware that there is a pending 
investigation. My understanding is this is a joint 
investigation between a number of IGs, including the DHS IG.
    Senator Ayotte. Great. Well, I look forward to you putting 
a very strong priority on this, and I think you bring a special 
expertise to it, given your experience on the 9/11 Commission, 
to put it in perspective.
    Mr. Roth. Thank you.
    Senator Ayotte. Thank you.
    Chairman Carper. Senator Ayotte, thanks for your questions. 
Thanks for being here.
    Senator McCaskill, welcome. Good to see you.

             OPENING STATEMENT OF SENATOR McCASKILL

    Senator McCaskill. Thank you. Good to be here.
    First, let me address your family for a moment. Your dad 
and your husband has a great deal of talent and capability and 
he has chosen in his life to not go out and make huge money, 
but rather to toil away in office buildings in very dangerous 
work for most of his career. And I want to thank you all. I 
know how proud you are of him and I want you to know we 
appreciate the sacrifices that you make every day so that he 
can continue to serve the public.
    I am glad you are going to be here. This is a really 
important IG job. You have a real morale problem on your hands, 
Mr. Roth. You have a staff that is divided between those who 
were making the accusations against Mr. Edwards and those who 
were hired by and remain loyal to Mr. Edwards, and that is a 
very difficult management challenge. I am sure that all of 
them, regardless of whether they were the whistleblowers on the 
inappropriate conduct of your predecessor or whether they are 
some of the talent that Mr. Edwards may have brought to the 
agency--figuring out how to meld that together in a working 
unit and get past these serious morale problems that you have 
right now is really going to be a challenge.
    Do you have any plans as to how you are going to bridge the 
divide between these two camps that have been warring for some 
time at this IG's Office?
    Mr. Roth. I acknowledge this is going to be, if I am 
confirmed, a very significant issue that I am going to have to 
face early on, and one of the things that I have found in 
agencies that have morale problems and have these kind of 
warring camps is a lack of focus on mission, and I think it is 
very important to refocus people on the very important mission 
that the Inspector General's Office has, particularly in an 
agency like DHS, where there is so much good work to be done.
    So, my goal is to try to have people hit the reset button, 
and whatever happened in the past has happened in the past. I 
was not involved in that. I take no position on it. But what I 
do take a position on is people are going to do their jobs, 
they are going to focus on the mission, and we are going to get 
this thing done right.
    Senator McCaskill. You have two agents in the field office 
in McAllen, Texas, that were indicted for falsifying records to 
conceal real lapses in your office's standards. I am biased in 
this regard. I believe that the job of an auditor and the job 
of a prosecutor are kissing cousins because both of them must 
be dictated by the facts and they must have an incredible rigor 
about following the facts and not any political considerations. 
Those decisions have to be brutally independent, and by their 
very definition, they are difficult.
    Obviously, you have, once again, warring factions and 
conflict, because many of the field offices under your 
supervision believe they have suffered in morale because of the 
heavy hand of the central office. On the other hand, you have 
got people being indicted for concealing information--for 
falsifying records to conceal information in regards to 
standards. Have you given any thought about how you marry those 
two difficult propositions?
    Mr. Roth. No. And, again, this is a difficult proposition 
and I agree with you that it is going to take some work to do. 
I am fortunate in the fact that there are new Assistant 
Inspectors General in both the audit and the investigation 
function that, my understanding, were not involved in many of 
these things. I am going to get with those folks, but the other 
thing I am going to do is pack a suitcase and fly down there 
and figure out what the problems are, to be a good listener and 
see if we can resolve these issues in a way that is best for 
DHS, and again, focused on the very important mission of the 
Inspector General's Office.
    Senator McCaskill. Having reviewed your record and had an 
opportunity to visit with you at some length about the job that 
you were are willing to undertake--which I am grateful that you 
are willing to undertake it--I have a few questions that I want 
to get on the record, not that I think your answers are going 
to surprise me here, but I think it is important, and I think 
you appreciate getting things on the record and how that is 
important as we try to continue to do the right kind of 
oversight and accountability of this agency.
    Do you ever believe it would be appropriate to negotiate 
the timing of a release of a report with DHS for any reason?
    Mr. Roth. No, Senator.
    Senator McCaskill. If you are asked to remove information 
from a report by the Secretary's office, would you inform your 
Assistant IG for Audits or Investigations or others about such 
a conversation?
    Mr. Roth. Yes.
    Senator McCaskill. Under what circumstances is it 
appropriate to ask the Secretary's General Counsel for legal 
advice?
    Mr. Roth. I am not sure whether there is ever a 
circumstance in which that is necessary. The Inspector General 
Act, as you know, gives the Inspector General his own General 
Counsel and the right, also, to ping other General Counsels of 
other Inspectors General. So, I am not sure of a circumstance 
in which I would do that. There may be one. I simply cannot 
think of one off the top of my head.
    Senator McCaskill. In the IG's communications with 
Congress, under what circumstances would it be appropriate to 
share information with members or staff of one party but not of 
the other?
    Mr. Roth. Again, it is hard for me to conceive of a 
circumstance where that would be appropriate.
    Senator McCaskill. Well, and I think that is something 
that--it is a very hard thing to do around here, to be 
agnostic----
    Mr. Roth. Sure.
    Senator McCaskill [continuing]. About party identification. 
If there is ever a place that it is essential, it is in the 
role of IG. The minute you try to play ball with one side or 
the other--it does not matter whether you are playing ball with 
the Democrats or the Republicans--that means an immediate loss 
of credibility of the agency because then it is not about the 
facts, it is about the politics.
    I just wanted to make sure I got all that on the record at 
this hearing. I look forward to you having some uncomfortable 
moments in my Subcommittee and also look forward to working 
with you to try to strengthen the independence of your office. 
And, obviously, I know the Chairman and Senator Johnson, who is 
the Ranking Member of my Subcommittee, I know all of us just 
want you to be able to succeed and do the work that this agency 
so desperately needs.
    Thank you, Mr. Chairman.
    Mr. Roth. Thank you, Senator.
    Chairman Carper. Senator McCaskill, something that you said 
and something that Mr. Roth said earlier, I was talking to him 
about the values that he learned from his parents, and one of 
the things that he mentioned is integrity. I think Senator 
McCaskill really just gave you some real good advice and I 
would like to second it.
    One of the great quotes I have heard on integrity, though, 
is this. Integrity, if you have got it, nothing else matters. 
If you do not have it, nothing else matters. So, that is a 
great one to learn from your folks for all of us.
    I have a couple more questions and then I will yield back 
to Senator Johnson, if you would like to ask some more. Senator 
McCaskill, as you are heading out the door, just thank you so 
much for joining us.
    One thought that comes to mind is just in terms of advice, 
just if, by chance, you are confirmed, but I would urge you, 
and you may have already done this, to identify IGs that are 
going into an agency where morale is lapsing, where there has 
been an agency in turmoil, and talk to whoever has come in and 
done a good job and just to learn from that person how they 
have done it.
    As you know, the relationship between the Inspector General 
and a Secretary of a Department or a Deputy Secretary of a 
Department, in a way, it is sort of an arm's length 
relationship, but there needs to be an ability to work 
together. In my previous role as Governor, in working with our 
State auditor as they audited all of our different agencies, a 
lot of the information they gave us was good, but we had audits 
that came from the State auditor that were not timely. They 
covered a period of time that may have been a year or two ago, 
that had already been addressed, and there was no recognition 
of that in the audit.
    So, the role that the IG could play can be very, very 
constructive, very, very helpful, but it has to be timely, and 
I think the ability to have a good conversation, ongoing 
dialog, even at times there will be disagreements, but I think 
that is important and I urge you to try, and I will urge the 
Secretary and the Deputy Secretary to work with you to create 
that kind of working relationship. It will not just help you in 
the job that you and your folks are doing in the IG's Office, 
but it will help them make better leaders and it will help, 
ultimately help the taxpayers. And we will not have anything to 
do here, right, Ron? We will just have to find other things to 
focus on.
    All right. Program effectiveness. You obviously have 
extensive experience on the investigative side of the ledger, 
maybe less background focusing on the IG's mandate to promote 
general improvement, in this case, in the Department of 
Homeland Security's operations and programs. I would just ask 
you to discuss for just a minute or two what experience you 
have had in identifying program weaknesses and recommending 
improvements. How would you approach this part of the OIG 
mission within the Department?
    Mr. Roth. Certainly, Senator, and I think that is 
absolutely important, that we not only learn from--or be the 
watchdog and the overseer with regard to DHS operations, but 
also to try, if I am confirmed, to be the advocate for good 
government.
    Certainly, I have seen that DHS has done some of that. The 
IG's Office has done some of that. For example, some of the 
reports with regard to FEMA, the response to, for example, 
Hurricane Sandy, I believe there was a report that was recently 
written that talked about the things that FEMA did that made it 
effective in their initial response to the hurricane. It was 
more than just a cheerleading session. These are the things 
that they did with an attempt to sort of advocate that that get 
replicated in future disaster events.
    So, if I am confirmed, that is something I certainly would 
want to do as I move forward.
    Chairman Carper. A second followup question goes back to 
acquisitions. The Subcommittee that Senator Johnson and Senator 
McCaskill lead focuses on a number of things, but one of those 
is acquisitions, and let me just focus a little bit on that and 
maybe on the sort of the management side of the ledger at the 
Department of Homeland Security.
    I will say at the beginning, leadership is the most 
important criteria I have seen for almost any entity being 
successful. If you have great leadership, I do not care if it 
is a business, I do not care if it is a school, I do not care 
if it is a governmental unit, I do not care if it is military, 
it is athletic, if you have got good leadership, I will show 
you a team that is on the way up. If you do not have it, then I 
will show you a team that is probably not going to go far, 
wherever that team might be, and that is why it is so 
important.
    We are making progress in terms of meeting the need for 
leadership within DHS. There are still too many gaping holes in 
the Department, but the Secretary, the Deputy Secretary, this 
position, if we can fill these and a couple of others this 
month, that would be great progress.
    The Department of Homeland Security has struggled, as you 
know, over the years, with management of its major 
acquisitions. Senator McCain referred to one or two of those. 
In recent years, the Department's leadership has initiated 
several efforts at the Department level to provide more 
oversight by headquarters of the major acquisition of some of 
the different components. For example, the Department has 
implemented, they call it an Integrated Investment Strategy, to 
look at the total needs of the Department so that acquisitions 
are not carried out in a stovepipe way in those different 
components.
    Let me just ask, what would be your approach to assessing 
these efforts, if you would, please.
    Mr. Roth. Certainly, Senator. And what DHS has done, in my 
reading and in my perception, is that they have attempted to 
put a governance structure on major acquisitions. Whether it be 
IT or other kinds of infrastructure improvements, you have to 
have a governance so people understand, what is it that you are 
trying to do? What is the best way to get there, the most cost 
effective way to get there?
    And I think the IG has a very critical role to play, not 
only in taking a look at that governance structure, but equally 
important, to ensure that the components follow the governance 
structure. So, it is there to protect those components from 
waste, fraud, and abuse. It is perfectly appropriate for the 
Inspector General to be able to take a look at that and ensure 
that they are complying with it.
    Chairman Carper. OK. In terms of acquisition in IT, 
especially, we spend, as a Committee, a fair amount of time 
focusing on data centers, IT. We do not do IT all that well in 
the Federal Government. One of our problems at DHS is they hire 
people, sometimes fairly junior people, maybe newly out of 
school, and sometimes with good experience but sometimes not so 
much. We train them. We get them up to speed. They get hired 
away by the National Security Agency (NSA) or some other entity 
in the private sector and then we have to start all over again.
    One of the things that Dr. Coburn and I and our Committee 
have worked on is how do we bolster the workforce to keep 
abilities in the workforce and enable DHS and the IT world to 
be able--and the cyber world--to develop the kind of 
capabilities we have at NSA.
    So, let me continue with my thought and my questions with 
respect to acquisition. It seems while everyone seems to agree 
that the Department needs stronger management, not everyone is 
willing to fund the management functions of the Department. I 
have been particularly concerned about steep proposed cuts in 
the management side in the House version of the DHS 
appropriations bill, which is taking shape literally as we meet 
here this week. Will you be willing to identify management 
functions within the Department that are weaker than they 
should be because of lack of funding? Is that something that 
you could see the OIG helping us in?
    Mr. Roth. I think that falls squarely, Senator, within the 
OIG mission, and if I am confirmed, I am perfectly happy to 
take a look at that.
    Chairman Carper. All right. And a third question, and then 
I will yield to Senator Johnson, but I mentioned cybersecurity 
a minute ago, and let me just come back to it. But, as you 
know, one of the greatest challenges that face our Nation and 
our Federal agencies--I read something, Senator Johnson, just 
this week that reiterated that again in terms of threats to our 
national security that is regarded as a higher one by many than 
terrorism, and that is regarded by many within our defense 
agencies, or intelligence agencies. But, the Department of 
Homeland Security, along with, as you know, many other 
agencies, plays a significant role in securing cyberspace, 
auditing complex and highly technical areas such as the 
cybersecurity posture of the Department requires strong 
expertise and close collaboration with Department officials.
    If confirmed, how would you work with the Department to 
carry out its role in cybersecurity, and any thoughts you have 
on how you might improve it, where necessary.
    Mr. Roth. Certainly. And I agree, this is critically 
important, and it is important not to be fighting the last war 
but try to prepare for the next war, and----
    Chairman Carper. Yes. We are pretty good at fighting the 
last one, usually.
    Mr. Roth. I was able to review the testimony and the 
hearing that this Committee had on the anniversary of September 
11 this year, where, for example, Admiral Thad Allen testified 
with regard to this, and it is critically important.
    Chairman Carper. That was a really good hearing.
    Mr. Roth. It is critically important to get this right. I 
know that the Office of Inspector General has a specialized 
unit that takes a look at IT issues. If I am confirmed, I would 
like to take a look at that and make sure we have the kind of 
expertise, this kind of vision that is necessary to really add 
value to the DHS efforts in this area.
    Chairman Carper. All right. Thank you. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would just like to quickly go back to the issue of the 
Secret Service, respond a little bit to your comments, but also 
connect the dots between a question I had and one of your 
previous answers.
    There is no doubt about it, we have to be looking forward 
and we have to make sure that we put the policies in place, the 
controls in place, so Cartagena does not happen again. But in 
response to my question about prioritization, your first 
priority was national security. In no way, shape, or form did I 
continue to pursue our investigation that was happening of the 
Secret Service because I relished it. I did it because I truly 
believe that that type of behavior puts at risk not only 
people's lives, but our national security.
    And I had hoped that the culture report, first of all, 
would have come back in a far more timely fashion. I would have 
hoped it would have been far more rigorous. I would have hoped 
that I could have agreed with its conclusion, that this 
behavior is not potentially widespread. I still do not know. I 
hope it is not widespread, but I read that culture report and 
in no way, shape, or form can I conclude that we do not have a 
problem in the Secret Service.
    So, I guess I just hope that you adhere to your initial 
answer to my question, that our national security is your top 
priority in terms of looking at these issues, and I hope you 
agree with me that this question remains unanswered, because I 
just simply do not believe the culture report even begins to 
have as much rigor as what it should have. And my questions 
started immediately from that May 2012 hearing with Director 
Sullivan, that I simply do not believe that the testimony was 
credible from a standpoint that this was a one-time occurrence. 
I am still highly concerned. I think the question is still on 
the table and I hope you truly pursue that so we can get to the 
bottom of it, we can assure ourselves, and then we can move 
forward with a credible Secret Service agency that protects 
people's lives and our national security. Thank you.
    Chairman Carper. Let me just think out loud here, this is 
something that Senator Johnson cares deeply about, has focused 
and his staff a lot of time and attention on. So has the IG's 
Office. So has the Inspector General. He has spent a great deal 
of time and have come forward, I think, with a timely report. 
Sometimes, reports take years. Investigations take years to 
develop a completed product. In this case, I think the agency 
has come forth with timely work.
    What I would urge you to consider doing, both of you, is, 
if you are confirmed--I hope you will be--that one of the first 
orders of business will be to convene a briefing on Capitol 
Hill in which you and the folks that are intimately involved in 
the investigation brief Senator Johnson and his staff on this 
matter. And once you have done that, Senator Johnson, you may 
want to consider spending some time with the still new--
Director of the Secret Service and some of her top team. If it 
is appropriate for me and my staff to join you for that or 
others, feel free to do that. But that is just a thought there 
I would lay out for you.
    Senator Johnson. I appreciate that Mr. Chairman.
    Chairman Carper. OK. Well, so far, so good. I have said to 
some of our staff here on the Republican side and on the 
Democratic side, if you are as good as an Inspector General, as 
you are as a witness, we could be in pretty good hands. 
[Laughter.]
    But, I say to your sons, John and Michael and to your wife 
Monique, we have a lot of witnesses before us. They do not 
always deliver testimony that is as succinct and direct as your 
husband and father has done today, and, frankly, our questions 
are not always as succinct and direct, either.
    I want to walk back a little bit on the timeline that has 
transpired and led us to this day. This is an enormously 
important position, important because the Department--ten years 
sounds like a long time for it to have been around, but it is 
still a Department with growing pains and a lot of work that 
needs to be done.
    Having said that, this is a Department that, unfortunately, 
has a low morale. There are a lot of good people in that 
Department, a lot of good people. They do enormously important 
work and I know they have been frustrated because they went 
without a Secretary for about 6 months, a Senate-confirmed 
Secretary for almost 6 months. They went without a Deputy 
Secretary for about 8 months. And they need leadership and I 
think they have good leadership. This is an agency that 
obviously needs good leadership.
    But I want to just go back. I think it was March 1, 2011, 
that Richard Skinner, the last Senate-confirmed Inspector 
General for DHS, that is when he retired, March 1, 2011. About 
3 months later, the President nominated a woman named Roslyn 
Mazer to be the IG. So, that is not great, but that is not bad 
in terms of timing. That was in July 2011. Almost a year later, 
June 2012, her nomination was withdrawn after not going 
anywhere for a year, and it was clear that she could not be 
confirmed because of the opposition of at least one, maybe two, 
Members of our Committee.
    Fast forward to early January 2012, but I think when 
Richard Skinner retired, that the Deputy IG became the Acting 
Inspector General--that would have been back in March 2011--and 
continued as Acting IG after Roslyn Mazer's name was withdrawn 
and continued as Acting IG until earlier that year. It became 
apparent that you cannot be the Acting IG for more than, I want 
to say, about 210 days. So, after about 210 days, the President 
could have named somebody else, did not, and so he was, by 
virtue of being Deputy IG, remained the person in charge of the 
agency.
    Now, so all that transpired between March 2011 and, we will 
say, the beginning of last summer, the summer of 2013. By that 
point in time, we had been more than 2 years without a Senate-
confirmed IG. And then the White House vetted an unknown 
individual for the IG nomination and that vetting process went 
forward and the President was prepared to submit that name, and 
just before submitting it, the nominee and his or her family 
decided they were not going to move from California to 
Washington to really come in and try to help drain the swamp 
here.
    So, the White House started over again, and subsequent to 
that, about 4 or 5 months later, you were nominated to be our 
Inspector General at the Department of Homeland Security. I am 
really grateful to Dr. Coburn and the members of our staffs and 
our colleagues for their work and for your cooperation and the 
Department's cooperation in expediting this nomination. But, it 
has been since March 1, 2011, since we had a Senate-confirmed 
IG in place. That is just totally unacceptable, almost 3 years. 
And, as I said earlier, leadership is critical in almost 
everything in every organization I have ever been a part of.
    Apparently, my staff tells me that we cannot--Dr. Coburn 
suggested to me--in a sidebar conversation earlier this 
morning, he suggested the possibility of doing a markup on this 
nomination off the floor. It would not be back here in this 
room in a very formal way, but we can still meet off the 
floor--we oftentimes do--in the Capitol and to do a nomination, 
really, do a short discussion and a vote on the nomination. I 
understand we cannot do that legally this week, is that 
correct? It has to be, what is it, a week that has to pass 
before we can do that. But, hopefully, we can work it out with 
Dr. Coburn and his staff and our colleagues. I would love to be 
able to do that maybe next week.
    The other thing I want to mention is the issue of how long 
some investigations take, and Dr. Coburn asked earlier that 
your office, if you are confirmed, move forward in a timely way 
on the investigation involving now-Deputy Secretary Mayorkas. 
It is important that we move forward apace.
    I want to just mention another investigation. I just 
learned about this one. But it goes back to the investigation 
of a former Special Counsel named Scott Bloch, which was 
delayed, and the complaints were lodged in March 2005. The 
investigation concluded in December 2013. On this case, it is 
not the OIG's office that was the main culprit. Apparently, it 
was the Justice Department, and it was complicit, if you will, 
in the delay, and there are other reasons why it took longer 
than normal. But, as I am sure you agree, 8 years, really 
unacceptable by anybody's standards.
    So, I would keep in mind the old admonition, justice 
delayed is justice denied and just make sure that that is 
something that the folks you lead are mindful of.
    You have gotten some advice from us. We hope it is 
constructive. Friendly advice, that is for sure. Again, I go 
back. I would urge you to spend some time early on with the 
Secretary and Deputy Secretary at your convenience and theirs.
    I would also urge you to spend, literally within the first 
month, time with a fellow named Gene Dodaro whom you probably 
know. Gene is a wonderful leader of the Government 
Accountability Office, testifies here often, as does his team 
from GAO. They help us in all kinds of ways. There is a natural 
bond or a partnership between the IGs and the Government 
Accountability Office, and I would urge you to make it 
personal. You are taking up the leadership of an agency that 
has so many great people there. I think Gene Dodaro and his 
folks could give you some good advice and, frankly, be very 
helpful.
    The last thing I want to do, I sometimes give people a 
chance to make a--you made an opening statement. Sometimes, I 
give people a chance to make a closing statement. If you 
promise not to take long, I would like to give you that 
opportunity now.
    Mr. Roth. Thank you, Senator. You will find that, if I am 
confirmed, conciseness is one of my hallmarks. I do want to----
    Chairman Carper. I have noticed that.
    Mr. Roth. I do want to thank the Committee, yourself, the 
Ranking Member, all the Members of the Committee, the staff, 
for the graciousness by which they have taken the time to 
inform me of the issues. I appreciate the ability to be here 
today to discuss these very important issues.
    As I indicated in my opening, it is critically important to 
get this thing right. It is important for the American people 
and it is important for the American taxpayer to get this 
right. I have dedicated my entire life to public service. I 
think it is a public trust. My credibility, my personal 
credibility is the coin of the realm in this town and I have no 
intention, if I am confirmed, of ever soiling that.
    So, I would ask for your support in confirmation, and if 
that happens, I think I will do a good job.
    Chairman Carper. Well, I think you just might.
    I would like to thank Mr. Roth for appearing before the 
Committee today. I do. I also just want to say to Monique and 
to John and to Michael, I thought he did pretty good. What do 
you think? Two thumbs up? All right. You guys, I know it is a 
comfort to him for you to have his back. All these years.
    Mr. Roth has filed responses to biographical and financial 
questionnaires. He has answered prehearing questions submitted 
by the Committee and our staff and he has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made a part of the hearing 
record, with the exception of the financial data, which are on 
file and available for public inspection in the Committee 
offices.
    And without objection, the record will be kept open until 
noon tomorrow for the submission of any written questions or 
statements for the record.
    I think, with that, I think it is a wrap. So, we are going 
to adjourn, and again, my thanks to you and to all who have 
joined us.
    Mr. Roth. Thank you.
    Chairman Carper. The Committee is adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
